                                                                                                    11

                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM
                                                                                                     11




     Case Number: 1-06-10-0034                                                                  Page 1 of 1
                                                                                                         'I




          This investigation was opened as a result of a proactive review of cooperative agreemenfs that
 1        were awarded during FY 2004, with cost-sharing commitments over $500,000. Initial review
                                                                                                          'I
          disclosed an award' at a universitg which had a significant shortfall3 in cost-sharing.

          Our investigation, which included an analysis of all of the financial documents for this award
          revealed that the university met all of their cost-sharing obligations under this award.

11        In light of the above, no further investigative effort is necessary in this matter.

          Accordingly, this case is closed.



                                                                                                               I




                                                                                                                   I1




          I                                                                                                             11
          2
          3



                                                                                                                         I




 NSF01G rortn2 (11102)
